HHS/OIG-Audit--"Review of Medical Assistance Claims for State Operated Psychiatric Center Clients Between The Ages of 21 of 64 Who Were Temporarily Released To Acute Care Facilities for Medical Treatment, (A-02-93-01036)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medical Assistance Claims for State Operated Psychiatric Center Clients Between The Ages of 21 to 64
Who Were Temporarily Released To Acute Care Facilities for Medical Treatment," (A-02-93-01036)
April 10, 1995
Complete
Text of Report is available in PDF format (2.73 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that New York has and is continuing to improperly claim Federal sharing for clients
between the ages of 21 to 64 who are temporarily released from State operated institutions for mental diseases (IMDs) to
acute care hospitals for medical treatment. In clarifying guidance, the Health Care Financing Administration (HCFA) has
made it clear that during a temporary release to an acute care facility for medical treatment, the clients retain their
IMD status and, as such, FFP claims for the medical treatment are not allowable. Improper claims could total as much as
$9.2 million (FFP) for the 3-year period ending December 31, 1993. In addition to financial adjustments, we recommended
that the State cease claiming FFP for such services. The State disagreed. The HCFA, however, totally concurred with our
findings and recommendations.